                                         UNITED STATES
                                 NUCLEAR REGULATORY COMMISSION
                                            WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL
                                                   April 8, 2014




MEMORANDUM TO:                   Chairman Macfarlane




FROM:                            Hubert T. Bell /RA/
                                 Inspector General


SUBJECT:                         AUDIT OF NRC’S FISCAL YEAR 2013 COMPLIANCE WITH THE
                                 IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT
                                 OF 2010 (OIG-14-A-14)



This report reflects the results of the Office of the Inspector General’s (OIG’s) audit of the
United States Nuclear Regulatory Commission’s (NRC’s) Fiscal Year (FY) 2013 compliance
with the Improper Payments Elimination and Recovery Act of 2010 (IPERA). 1 OIG determined
that NRC complied with the requirements of IPERA.


BACKGROUND


On July 22, 2010, IPERA was signed into law, which amended the Improper Payments
Information Act of 2002 (IPIA) and generally repealed the Recovery Auditing Act. IPERA also
directed the Office of Management and Budget (OMB) to issue implementing guidance to
agencies. IPERA requires Federal agencies to periodically review all programs and activities
that the agency administers and identify all programs and activities that may be susceptible to
significant improper payments. 2 In addition, IPERA requires each agency to conduct recovery

1
 Public Law 111-204.
2
  According to IPERA, an improper payment is (A) any payment that should not have been made or that was
made in an incorrect amount (including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements; and (B) includes any payment to an ineligible recipient,
any payment for an ineligible good or service, any duplicate payment, any payment for a good or service not
received (except for such payments where authorized by law), and any payment that does not account for credit
for applicable discounts. IPERA provides a detailed explanation of what is considered a “significant” improper
payment (Section 2 (a) (3) (A)).
               Audit of NRC’s Fiscal Year 2013 Compliance With the Improper Payments Elimination and Recovery Act of 2010




audits3 with respect to each program and activity of the agency that expends $1,000,000 or
more annually, if conducting such audits would be cost-effective. On April 14, 2011, OMB
issued Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB
Circular A-123, as implementing guidance for the requirements of IPERA.

OMB guidance also specifies that each agency’s Inspector General should review agency
improper payment reporting in the agency’s annual Performance and Accountability Report
(PAR) or Annual Financial Report (AFR), and accompanying materials, to determine whether
the agency complied with IPIA, as amended by IPERA. 4

According to OMB guidance, compliance with IPIA, as amended by IPERA, means that the
agency has:

       •   Published a PAR or AFR for the most recent FY and posted that report and any
           accompanying materials required by OMB on the agency Web site.

       •   Conducted a program specific risk assessment for each program or activity that
           conforms with Section 3321 of Title 31 U.S.C (if required).

       •   Published improper payment estimates for all programs and activities identified as
           susceptible to significant improper payments under its risk assessment (if required).

       •   Published programmatic corrective action plans in the PAR or AFR (if required).

       •   Published, and has met, annual reduction targets for each program assessed to be at
           risk and measured for improper payments.

       •   Reported a gross improper payment rate of less than 10 percent for each program and
           activity for which an improper payment estimate was obtained and published in the PAR
           or AFR.

       •   Reported information on its efforts to recapture improper payments.

If the agency does not meet one or more of these requirements, it is not compliant with IPIA,
as amended by IPERA. The agency’s Inspector General should also evaluate the accuracy
and completeness of agency reporting and performance in reducing and recapturing improper
payments.


3
    Recovery audits are also referred to as “payment recapture audits.”
4
    Although IPERA amends IPIA, the authorizing legislation is still named IPIA.
          Audit of NRC’s Fiscal Year 2013 Compliance With the Improper Payments Elimination and Recovery Act of 2010




OBJECTIVE

The objective of this audit was to assess NRC's compliance with the IPERA and report any
material weaknesses in internal control.

RESULTS

Based on our review of NRC’s FY 2013 PAR and other documentation provided by the
agency, OIG has determined that the agency is in compliance with the requirements of IPERA.
OIG has also concluded that agency reporting of improper payments is accurate and complete.

AGENCY COMMENTS

The Chief Financial Officer reviewed the OIG draft report and had no comments.

SCOPE AND METHODOLOGY

We audited agency documents related to NRC’s compliance with IPERA for FY 2013. We
conducted our work at NRC headquarters during March 2014 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

This audit was conducted by Eric Rivera, Team Leader; Terri Cooper, Audit Manager; and
Michael Steinberg, Senior Auditor.

If you have any questions, please contact Stephen D. Dingbaum, Assistant Inspector General
for Audits, at 415-5915 or me at 415-5930.

cc:   Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      J. Dyer, CFO
      M. Satorius, EDO
